No. 20-853234

In the Supreme Court of the United States
ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR, UNITED STATES
PATENT AND TRADEMARK OFFICE, PETITIONER
v.
FALL LINE PATENTS, LLC, et al.

CERTIFICATE OF SERVICE
I, Nicole A. Saharsky, counsel for HemoSonics LLC, hereby certify that on this 19th
day of March, 2021, I caused the response in support of the petition for a writ of
certiorari to be served by email on the following counsel:
Matthew James Antonelli
Antonelli, Harrington & Thompson, LLP
4306 Yoakum Boulevard, Suite 450
Houston, TX 77006
713-581-3000
matt@ahtlawfirm.com

James R. Barney
Finnegan, Henderson, Farabow,
Garrett & Dunner, LLP
901 New York Avenue NW
Washington, DC 20001
202-408-4412
james.barney@finnegan.com

Jeremy Seth Pitcock
The Pitcock Law Group
1501 Broadway
12th Floor
New York, NY 10036
646-571-2237
jpitcock@pitcocklawgroup.com

Edward M. Cannon
Knobbe, Martens, Olson & Bear,
LLP
2040 Main Street
14th Floor
Irvine, CA 92614
949-760-0404
ted.cannon@knobbe.com

Matthew James Antonelli
Antonelli, Harrington & Thompson, LLP
4306 Yoakum Boulevard, Suite 450
Houston, TX 77006
713-581-3000
matt@ahtlawfirm.com

John C. O'Quinn
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
john.oquinn@kirkland.com

Stephen Yee Chow
Hsuanyeh Law Group, PC
11 Beacon Street
Boston, MA 02108
617-886-9088
stephenychow@rcn.com

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

James Etheridge
Etheridge Law Group
2600 E Southlake Boulevard
Suite 120-324
Southlake, TX 76092
817-470-7249
Jim@EtheridgeLaw.com

Thomas Gregory Sprankling
Wilmer Cutler Pickering Hale
and Dorr LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
650-858-6000
Thomas.Sprankling@wilmerhale.com
/s/ Nicole A. Saharsky
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

